<html>
<title> - VOTING RIGHTS AND ELECTION ADMINISTRATION: COMBATTING MISINFORMATION IN THE 2020 ELECTION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                VOTING RIGHTS AND ELECTION ADMINISTRATION: 
                  COMBATTING MISINFORMATION IN THE 2020 
                  ELECTION

=======================================================================

                                HEARING

                               BEFORE THE
                               
                       SUBCOMMITTEE ON ELECTIONS

                                 OF THE

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 6, 2020

                               __________

      Printed for the use of the Committee on House Administration
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                       Available on the Internet:
         http://www.gpoinfo.gov/committee/house-administration
         
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-741 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
         
         
         
                   COMMITTEE ON HOUSE ADMINISTRATION

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois, Ranking 
SUSAN A. DAVIS, California               Member
G. K. BUTTERFIELD, North Carolina    MARK WALKER, North Carolina
MARCIA L. FUDGE, Ohio                BARRY LOUDERMILK, Georgia
PETE AGUILAR, California
                            
                            C O N T E N T S

                              ----------                              

                            OCTOBER 6, 2020

                                                                   Page

Voting Rights and Election Administration: Combatting 
  Misinformation in the 2020 Election............................     1

                           OPENING STATEMENTS

Chairwoman Marcia L. Fudge.......................................     1
    Prepared statement of Chairwoman Fudge.......................     4
    Prepared statement of Ranking Member Davis...................     7

                               WITNESSES

Hon. Benjamin Hovland, Commissioner, U.S. Election Assistance 
  Commission.....................................................    11
    Prepared statement of Hon. Hovland...........................    14
Hon. Jena Griswold, Secretary of State, State of Colorado........    16
    Prepared statement of Hon. Griswold..........................    18
Ms. Inajo Davis Chappell, Member, Board of Elections, Cuyahoga 
  County, Ohio...................................................    21
    Prepared statement of Ms. Chappell...........................    23
Mr. Spencer Overton, President, Joint Center for Political and 
  Economic Studies...............................................    26
    Prepared statement of Mr. Overton............................    28

                        QUESTIONS FOR THE RECORD

Hon. Benjamin Hovland, Commissioner, U.S. Election Assistance 
  Commission answers to submitted questions......................   106
Hon. Jena Griswold, Secretary of State, State of Colorado, 
  answers to submitted questions.................................   117
Ms. Inajo Davis Chappell, Member, Board of Elections, Cuyahoga 
  County, Ohio, answers to submitted questions...................   119
Mr. Spencer Overton, President, Joint Center for Political and 
  Economic Studies, answers to submitted questions...............   124

                       SUBMISSIONS FOR THE RECORD

Article, The Kremlin's Plot Against Democracy: How Russia Updated 
  Its 2016 Playbook for 2020, by Alina Polyakova, Foreign 
  Affairs, September/October 2020................................   134
Article, What We Know About Alleged Efforts by Trump's 2016 
  Campaign to Suppress Black Votes, Washington Post, September 
  29, 2020.......................................................   141
Mythbusters, Cuyahoga County Board of Elections (submitted by Ms. 
  Chappell)......................................................   145

 
VOTING RIGHTS AND ELECTION ADMINISTRATION: COMBATTING MISINFORMATION IN 
                           THE 2020 ELECTION

                              ----------                             


                        TUESDAY, OCTOBER 6, 2020

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 1:00 p.m., via 
Webex, Hon. Marcia L. Fudge [Chair of the Subcommittee] 
presiding.
    Present: Representatives Fudge, Lofgren, Aguilar, 
Butterfield, and Raskin.
    Staff Present: Jamie Fleet, Staff Director; David Tucker, 
Senior Counsel and Parliamentarian; Peter Whippy, 
Communications Director; Natalie Young, Press Secretary; 
Stephen Spaulding, Senior Elections Counsel; Sarah Nasta, 
Elections Counsel; Kulani Jalata, Elections Counsel; Georgina 
Cannan, Elections Counsel; Daniel Taylor, General Counsel; and 
Brandon Jacobs, Legislative Clerk.
    Chairwoman Fudge. The Subcommittee on Elections of the 
Committee on House Administration will come to order.
    I am happy to announce that we are joined today by 
Congressman Butterfield from North Carolina, Mr. Aguilar from 
California, and Mr. Raskin from Maryland.
    As we begin, I want to note, we are holding this hearing in 
compliance with the regulations for remote committee 
proceedings pursuant to House Resolution 965.
    Generally, the Committee will keep microphones muted to 
limit background noise. Members will need to unmute themselves 
when seeking recognition or when recognized for their five 
minutes. Witnesses will need to unmute themselves when 
recognized for their five minutes or when answering a question.
    Members and witnesses, please keep your camera on at all 
times. Even if you need to step away for a moment, do not leave 
the meeting.
    At this time, I ask unanimous consent that all members have 
five legislative days to revise and extend their remarks and 
that any written statements be made part of the record.
    Hearing no objections, so ordered.
    Today, we are examining misinformation in the 2020 
election, how the spread of false information harms voters, and 
what can be done to combat this and ensure Americans go to the 
polls armed with accurate information.
    This year, we cannot discuss election misinformation 
without also recognizing the persistent misinformation being 
spread about the ongoing COVID-19 pandemic. Americans need 
accurate information about how to cast their ballot, about the 
pandemic, and, importantly, accurate information on how to cast 
their ballot in a manner that protects their health.
    Election day may be four weeks from today, but voting is 
already well underway. Overseas and military ballots were sent 
out to thousands of voters a few weeks ago. Absentee ballots 
can be requested now and returned in the weeks ahead. More than 
30 States are already mailing ballots to voters. Early in-
person voting began in many States over the last two weeks, and 
more will do so in the days and weeks ahead. In fact, early 
voting begins in Ohio today.
    The American people are voting and will be voting now 
through November 3. And, during all of this, the President and 
others are waging an insidious campaign to sow distrust in our 
electoral process by spreading false claims that vote-by-mail 
is rife with fraud, making unsubstantiated claims the election 
will be rigged, encouraging people to vote twice, which is 
illegal and immoral.
    Additionally, U.S. intelligence agencies warn that Russia 
has continued its disinformation campaign and attempts to 
interfere in our election. In 2016, no group of Americans were 
targeted more by Russian Internet Research Agency 
disinformation than African Americans.
    The American people deserve the truth. They deserve an 
election free from the real fraud of false information and 
voter suppression.
    The truth is, millions of Americans, including the 
President and members of his administration, cast a ballot by 
mail every election cycle with exceedingly rare instances of 
fraud.
    The truth is, as significantly more Americans prepare to 
cast their ballot from home this year than ever before, the 
American people must be prepared that we may not know the 
winner of the election on the night of November 3 and that this 
does not mean anything is wrong with the election. Election 
night results are never final results. Many States take days, 
if not weeks, to formally certify their election results. Many 
States also allow ballots that were mailed on election day but 
received in the days after to be counted.
    The truth is that there is nothing nefarious; it is simply 
about counting ballots. The count must be accurate, and that 
takes time. Every validly cast vote should count. That is 
democracy. Votes mailed on election day are votes cast on 
election day, and we should count them, not spread fear and lie 
about a rigged election.
    The misinformation being spread in the lead-up to this 
year's election is a disservice to voters and a danger to our 
democracy and our democratic institutions.
    The House passed the SHIELD Act in October 2019, which 
would address the spread of misinformation, including 
prohibiting the spread of false information about voting, but 
the Senate has refused to act.
    It is our duty to ensure voters have all the necessary 
accurate information they need to cast their ballots freely, 
fairly, and safely during the pandemic and with confidence in 
our electoral system.
    I thank all of our witnesses for being here today, and I 
look forward to hearing your testimony.
    [The statement of Ms. Fudge follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Ranking Member is unfortunately unable to join us 
today. I ask unanimous consent that his statement be made part 
of the hearing record.
    Without objection, so ordered.
    [The statement of Mr. Davis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. As I introduce the panel, each of you 
will be recognized for five minutes.
    I will remind our witnesses that their entire written 
statements will be made part of the record and that the record 
will remain open for at least 5 days for additional materials 
to be submitted.
    Another reminder to all our witnesses: There is a timer on 
the screen. Please be sure you can see the timer and are 
mindful of the five-minute limit.
    Joining us today: Benjamin Hovland, a commissioner with the 
U.S. Election Assistance Commission and the Commission's 
current chair. Commissioner Hovland was confirmed by unanimous 
consent in the Senate on January 2, 2019. He previously served 
as acting chief counsel for the Senate Committee on Rules and 
Administration.
    Welcome, sir.
    Jena Griswold is Colorado's 39th Secretary of State. 
Secretary Griswold began her term on January 8, 2019. She is 
the youngest elected Secretary of State in the country. 
Secretary Griswold has practiced international anti-corruption 
law, worked as a voter protection attorney, and previously 
served as the director of the Governor of Colorado's D.C. 
office.
    Welcome.
    Inajo Davis Chappell is a member of the Cuyahoga County 
Board of Elections, having served since her appointment in 
April of 2007. She is a partner at Ulmer & Berne, LLP, in 
Cleveland and chairs the firm's nonprofit group and is my good 
friend.
    Welcome.
    Spencer Overton is the president of the Joint Center for 
Political and Economic Studies. Mr. Overton is also a tenured 
professor at the George Washington University School of Law. He 
previously served as Principal Deputy Assistant Attorney 
General in the Office of Legal Policy at the Department of 
Justice during the Obama administration.
    It is interesting to note that we are holding this hearing 
during National Voter Education Week.
    With that, I will now recognize our witnesses for their 
five minutes. We will begin today with Mr. Hovland.
    You are recognized for five minutes.

  STATEMENTS OF THE HONORABLE BENJAMIN HOVLAND, COMMISSIONER, 
    U.S. ELECTION ASSISTANCE COMMISSION; THE HONORABLE JENA 
 GRISWOLD, SECRETARY OF STATE, STATE OF COLORADO; INAJO DAVIS 
 CHAPPELL, MEMBER, BOARD OF ELECTIONS, CUYAHOGA COUNTY, OHIO; 
AND SPENCER OVERTON, PRESIDENT, JOINT CENTER FOR POLITICAL AND 
                        ECONOMIC STUDIES

          STATEMENT OF THE HONORABLE BENJAMIN HOVLAND

    Mr. Hovland. Good afternoon. Thank you, Chairwoman Fudge 
and members of the Subcommittee. I appreciate this opportunity 
to testify before you today regarding the U.S. Election 
Assistance Commission's ongoing work in this important issue.
    Combating misinformation and disinformation was one of the 
expected issues of the 2020 election, and the COVID-19 pandemic 
has only exacerbated the risk.
    Following the 2016 foreign interference in our elections, 
there has been an increased focus and dedication to the 
security of our elections. The Department of Homeland 
Security's designation of election infrastructure as critical 
infrastructure has helped to fortify and coordinate efforts 
between Federal, State, and local government agencies, as well 
as with private industry. This has led to a sea change in 
information-sharing and, coupled with the Help America Vote Act 
grant funding, has greatly improved the security posture of our 
elections.
    While that commitment to securing our elections has 
continued, it is impossible to discuss the 2020 election 
without acknowledging the impact of the COVID-19 pandemic.
    Since March, amid the ongoing debates about the health of 
our communities and our economy, election administrators have 
faced the difficult task of determining how to best adapt their 
practices and procedures to conduct safe, secure, accessible, 
and accurate elections.
    At the EAC, we have pivoted substantially to focus our 
attention on how we can support State and local election 
officials as they make these tough decisions. The EAC has also 
distributed almost $1.2 billion in grant funding to the States 
since 2018. This includes $400 million from the recent CARES 
Act funds and additional election security funds authorized 
under HAVA. These resources have proven vital to improving 
election administration and addressing the COVID-19-related 
issues.
    Election administrators have really risen to the challenge 
during these difficult times, but the public servants who 
administer elections can only do their best when it comes to 
limiting the impact of widespread misinformation and 
disinformation about our elections.
    Political campaigns and interest groups are spending 
billions of dollars to influence Americans. Foreign adversaries 
are amplifying our divisions and mimicking traditional voter-
suppression tactics to dissuade participation or provide 
inaccurate information about how voters can participate.
    In the face of that, Americans must come together to 
protect our Nation, the electoral process, and voter 
confidence. Those who can should help encourage Americans' 
confidence in our electoral process by highlighting the great 
work of our election administrators.
    Additionally, supporting efforts like the National 
Association of Secretaries of State-driven #TrustedInfo2020 
campaign are an integral part of ensuring Americans get the 
right information on how to participate this year.
    Today, we are 28 days from election day. As Chairperson 
Fudge mentioned, military and overseas citizen, or UOCAVA, 
ballots have been sent out all across the country and around 
the world. A number of States have already begun early voting, 
and some registration deadlines have already passed.
    The most important things we can focus on at this point are 
the basics: serving voters well and helping them to have a 
positive experience, whether they vote by mail or absentee 
ballot, early in person, or on election day.
    Misinformation or disinformation can interfere with that. 
We must push back, not only against this intentionally 
misleading disinformation, but also misinformation that may be 
well-intentioned or appropriate for citizens in one State or 
jurisdiction but not another. In the D.C. area, for example, 
voters are registered in one of two States or the District. 
And, of course, social media does not stop at the State line.
    The reality is, the 50 States each run elections in their 
own unique way. The #TrustedInfo2020 effort that I mentioned 
earlier is about helping Americans get accurate information 
about election administration from their State and local 
election officials. This is the trusted source for each voter, 
which provides correct information on how to participate.
    With all the noise that surrounds this election, it is 
crucial that we encourage individuals to think through how they 
plan to vote and drive them to trusted source information. Most 
Americans have the option to vote by mail or absentee ballot, 
early in person, or on election day.
    We know from the Centers for Disease Control that limiting 
congestion in the polling places will help keep voting as safe 
as possible. Helping Americans get accurate information about 
their voting options and how they can participate this year 
ensures that voters have the opportunities to vote on or before 
election day.
    Thank you again for the opportunity to testify today, and I 
look forward to your questions.
    [The statement of Mr. Hovland follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you very much, Commissioner, and 
appreciate your testimony.
    We will now hear from Secretary of State Griswold.
    You are now recognized for five minutes.

            STATEMENT OF THE HONORABLE JENA GRISWOLD

    Ms. Griswold. Chairperson Fudge and Subcommittee members, 
thank you for your work on elections and for inviting me to 
this important hearing. My name is Jena Griswold, and I am 
Colorado's Secretary of State. I look forward to sharing my 
views on combating misinformation in the 2020 election.
    As Colorado's top election official, I believe election 
security is one of our greatest national security risks. If 
foreign countries interfere with our elections, it undermines 
faith in the entire electoral process. When voters doubt the 
process, they are less likely to participate, which weakens the 
very nature of our democracy.
    Today, I would like to briefly discuss the threats we are 
facing, what we are doing to combat them, and proposals for 
congressional action.
    Now, the intelligence community and bipartisan Senate 
Select Committee on Intelligence concluded that Russia 
interfered in the 2016 election. We know that foreign enemies, 
primarily Russia, are again trying to influence how we vote and 
undermine confidence in our elections based on reports from the 
ODNI. And the FBI and CISA just released the most pointed 
warnings to date, noting foreign actors may try to undermine 
confidence in the results.
    Foreign adversaries are right now, right this minute, 
meddling in our elections. We cannot allow this to continually 
happen.
    In response, to ensure Colorado remains at the forefront of 
election preparedness and that Coloradans remain confident in 
our process, I created the Rapid Response Election Security 
Cyber Unit, known as RESCU, to combat misinformation and 
emerging cyber threats.
    The RESCU team is coordinating with partners to increase 
resilience to foreign misinformation on the electoral process 
by implementing a public outreach effort to ensure Coloradans 
know to ignore the noise and seek reliable election 
information, ensuring my office can rapidly respond to 
misinformation on the electoral process by releasing accurate 
information, and ensuring county and nongovernmental partners 
work with us to roll out correct information. We are also 
working with DHS and the FBI on additional measures.
    Following the election, the team will shift towards further 
increasing our cybersecurity defenses and resilience to foreign 
interference. The team will stand up a cross-State initiative 
to advance legislative and policy initiatives to counter 
foreign misinformation.
    On this note, last winter, before COVID-19 shut down our 
State legislature, I proposed legislation to combat foreign 
disinformation in Colorado. The proposal, which I hope will 
become law, strengthens requirements to ensure paid election 
messages are not coming from foreign sources, stops campaign 
deepfake videos, prohibits campaigns from coordinating with 
foreign governments, and creates a private right of action to 
combat election misinformation close to the election.
    We must ensure that foreign countries do not use social 
media platforms as a tool to suppress Americans' votes. 
Colorado is leading on this, and our democracy demands it.
    Congress also has an important role to play, from 
legislation, appropriations, and warnings to the public about 
foreign adversaries' efforts. To tackle election 
misinformation, I recommend the following congressional 
actions:
    First, Congress should establish a commission with 
bipartisan representatives from State governments to develop 
recommendations to ensure that what happened in 2016 and is 
happening right now never happens again.
    Second, Congress should provide adequate funding to States 
for election cybersecurity, with a focus on increasing 
resilience to foreign misinformation.
    Third, Congress should require the intelligence community 
to rapidly declassify foreign misinformation and work with 
bipartisan representatives from State and Federal Government to 
roll out this information to the American public.
    And, fourth, Congress should consider legislation, like we 
are doing in Colorado, to combat deepfakes, election 
misinformation, and foreign coordination.
    To this end, I also call on Congress to act to remove the 
artificial protections afforded to social media companies by 
Section 230 of the 1996 Communications Decency Act. Social 
media companies are not neutral platforms, and third-party 
content posted on their sites can promote ill-intentioned 
foreign activity. They should no longer be shielded from 
accountability. While social media can be a tool for good, 
adversaries can also use it to their advantage with precision 
never seen before.
    In closing, I am grateful for this opportunity to testify 
today. I am optimistic that, with your leadership and 
partnership, we can counter foreign misinformation and ensure 
that every American has a democracy we can believe in.
    Thank you.
    [The statement of Ms. Griswold follows:]
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you.
    Attorney Davis Chappell, you are recognized for five 
minutes.

               STATEMENT OF INAJO DAVIS CHAPPELL

    Ms. Davis Chappell. Thank you to the Chair, Honorable 
Marcia Fudge, and to the other distinguished members of the 
United States House of Representatives on this Subcommittee. I 
appreciate the opportunity to speak.
    In the 13 years I have served on the Cuyahoga County Ohio 
Board of Elections, including the last three Presidential 
elections, I have never witnessed the kinds of falsehoods being 
disseminated about the integrity of our elections process that 
I have been seeing in this Presidential cycle.
    The lie that there is rampant voting fraud has been tamped 
down somewhat, but the campaign to discredit the integrity of 
our elections process is on the upswing, and it is shameful.
    The latest untruths being circulated in this election 
cycle, around vote-by-mail being fraught with problems, have 
not diminished the numbers of voters requesting vote-by-mail 
ballots. It is a bona fide election fact that voters in 
Cuyahoga County, Ohio, have been voting by mail successfully 
since 2006.
    Our Ohio Secretary of State, Frank LaRose, has published a 
number of materials this year highlighting the goals and 
tactics of the mis/disinformation campaigns we are seeing. 
These campaigns are, quote, picking divisive issues such as 
race, religion, and gender; planting fake news; amplifying 
messages via extreme fringe groups; organizing protests and so 
forth; using internet and social media to launch mass influence 
campaigns with a goal of subversion, civil unrest, and the 
creation of public discord. The campaigns are exploiting 
grievances, building distrust and cynicism, and ultimately 
discouraging voter participation.
    Our Secretary has noted that there are a number of foreign 
bad actors--Russia, North Korea, China, Venezuela--engaging in 
this campaign. Sadly, however, much of this misinformation is 
being promoted by President Trump, the White House, and other 
domestic bad actors who have unfairly demonized the vote-by-
mail process and, in the process, undermined public confidence.
    As elections officials, we are committed to correcting 
misinformation and disinformation as best we can and in a 
number of ways. In response to the fabrications around the 
vote-by-mail process, the Cuyahoga County Board of Elections 
began implementing a new initiative to encourage voters to vote 
by mail to maximize their safety in this pandemic, and that 
initiative is called ``Vote from Home.''
    We are also trying to separate fact from fiction by 
delivering counter-messages showing that vote-by-mail is safe 
and secure. We rolled out voting myth-buster messages to debunk 
voting myths with real facts. And the myth-buster messages are 
posted on social media to speak to a variety of topics geared 
to giving voters accurate information about elections and the 
voting process. Samples of those messages were included with my 
written testimony.
    Our Board of Elections has also ramped up efforts to 
connect with voter education and community outreach as a way to 
combat misinformation and disinformation efforts. We 
communicate regularly with over 300 community partners, 
including municipalities, nonprofit organizations, and our 
library systems.
    Although we only have three employees in our community 
outreach department, these individuals organize and present 
events that educate and engage voters. We have a robust website 
that provides information on all things voting, and we have 
vastly improved our social media presence on Facebook, Twitter, 
and LinkedIn. We are working to expand those capabilities.
    One new program we are proud to implement is a voter 
engagement session held by a bipartisan team consisting of our 
Board of Elections director and deputy director on Facebook 
Live. The session is held twice a week at noon for 10 or 15 
minutes to provide information and updates on the 2020 
election, to address relevant deadlines, to answer questions 
and address erroneous information brought to our attention.
    We post pertinent information on all social media outlets 
weekly and more often if we need to. And all of this is an 
effort to counter inaccurate and dangerous disinformation 
messaging being circulated in both traditional media as well as 
social media.
    We have been thinking about ways Congress might help to 
help boards of elections combat misinformation. Additional 
funding to allow for more robust community outreach and voter 
education programming, hiring of additional staff to work with 
voters, and earmarking of dollars for improving social media 
capabilities would be welcome.
    I am really hopeful the information that I shared with you 
today will help you as you consider ways to stop election 
misinformation and to restore voter confidence in our elections 
process.
    Thank you for the opportunity to speak to you today. And it 
is appropriate that we are having this hearing on Voter 
Education Week, and I am pleased to be here to share. And I 
would be happy to answer any questions you have.
    Thank you.
    [The statement of Ms. Davis Chappell follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you.
    And let me just say that, this morning, a couple of members 
of my staff happened to be down by the Board of Elections and 
took videos of people lined up all the way around the block on 
the very first day of in-person voting.
    President of the Joint Center, Attorney Spencer Overton, 
you are recognized for five minutes.

                  STATEMENT OF SPENCER OVERTON

    Mr. Overton. Chairwoman Fudge and Subcommittee members, 
thank you so much for inviting me to testify.
    My name is Spencer Overton. I am president of the Joint 
Center for Political and Economic Studies, which is America's 
Black think tank. I am also a tenured law professor at George 
Washington University, where my research focuses on voter 
suppression.
    Online disinformation is not simply dividing our Nation; 
foreign and domestic actors are using lies to specifically 
target and suppress Black votes right now. Just like wood and 
wind spread a wildfire, social media platforms are fueling the 
spread of lies that are undermining our democracy.
    This crisis is not hypothetical. In 2016, an organization 
associated with Russian military intelligence erected fake 
accounts pretending to be African Americans, and they urged 
Black people to protest by not voting. The Russians directed 38 
percent of their U.S. Facebook ad buys toward African 
Americans, even though Black folks are only 13 percent of the 
U.S. population.
    Also in 2016, the Trump campaign divided millions of 
Americans into several categories, including a category the 
campaign itself called ``Deterrence,'' right? The campaign 
micro-targeted ``Deterrence'' voters with tailored social media 
ads discouraging them from voting.
    Black voters were disproportionately singled out. For 
example, although African Americans account for only 22 percent 
of North Carolina's population, they were 46 percent of the 
North Carolina voters labeled as ``Deterrence.'' Overall, the 
Trump campaign labeled 3.5 million Black voters for 
``Deterrence.''
    The 2016 Presidential election marked the most significant 
decline in Black voter turnout in modern history.
    And with that record, it is no surprise that these efforts 
are continuing in 2020. During the Democratic Presidential 
primary, the Russians targeted Black users with online 
disinformation about Senator Kamala Harris. In March 2020, 
Facebook and Twitter acknowledged that they removed a network 
of Russian-backed accounts originating in Ghana and Nigeria 
that targeted Black communities in the U.S.
    And, just last month, the Department of Homeland Security 
revealed that Russia is attempting to promote false statements 
online that mail-in ballots are riddled with fraud. When some 
social media companies started to remove these lies, the Trump 
administration retaliated by issuing an executive order 
attempting to amend Section 230 of the Communications Decency 
Act.
    You will remember that Section 230 gives a social media 
company the power to remove disinformation that is obscene, 
excessively violent, or otherwise objectionable without the 
risk of legal liability. The Trump administration proposal 
would preserve the power of platforms to remove obscene and 
excessively violent content but would eliminate their power to 
remove other objectionable content, like election 
disinformation.
    If the Trump proposals were adopted, companies could risk 
legal liability for removing ads targeted at Black users, 
telling them lies like you can't vote if someone in your 
household has committed a crime.
    The private companies removing lies about our elections 
does not stifle free speech. This elevates civil rights in our 
democracy. Many of these platforms are not simply unmoderated 
community billboards, but instead they use carefully crafted 
algorithms to grab the users' attention and to maximize ad 
revenue. Just as the companies remove adult pornography without 
violating speech, they should remove false voting information.
    Many of the world's most profitable companies should not 
profit from discrimination against many of our most 
marginalized communities. Even though Mark Zuckerberg said, 
``Voting is voice, and it is the single most powerful 
expression of democracy,'' he and other tech companies must 
take bolder action to end voter suppression.
    So, while the Russians and the Trump campaign buy 
misleading ads targeted at Black voters to persuade them not to 
vote, the Trump administration pushes to rewrite Federal law so 
the platforms can't remove disinformation about elections. We 
need companies to unequivocally stand up and remove all 
disinformation to prevent a repeat of 2016.
    Now, I want to be clear: Online platforms have made 
progress, but they need to do much more. I look forward to 
talking about that in Q&A.
    We have less than a month to work together to prevent the 
burning of our democracy. We need all hands on the bucket line.
    Thank you, and I look forward to our discussion.
    [The statement of Mr. Overton follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you very, very much.
    It is now time for our Members to ask their questions.
    Let me just say, you will notice that there are no 
Republicans on this call. And I would suggest that, by their 
absence, they have either decided that they are not concerned 
about this topic or, at best, they don't care to be involved in 
this discussion.
    So, with that, I would now recognize Mr. Butterfield, who 
is traveling, as you can see, but this issue was important 
enough for him to, from his automobile, be a part of this 
discussion.
    Mr. Butterfield, you are recognized for five minutes.
    Mr. Butterfield. Thank you very much, Madam Chair. And it 
is good to see all of my Democratic colleagues here today. I, 
too, am disappointed that my Republican colleagues did not see 
the wisdom in participating in this conversation today.
    But we have heard from the witnesses, and thank you to all 
of the witnesses for your testimony.
    Let me just start with the gentleman from the Election 
Assistance Commission, Mr. Hovland.
    Mr. Hovland, thank you for all that you do for our country.
    I need to extend the conversation more about the 
misinformation and disinformation subject. I think Dr. Overton 
touched on it just a moment ago, and it is so critically 
important.
    What resources, what initiatives are States and local 
election officials utilizing to combat such misinformation and 
disinformation? What resources are the States using and local 
cities and counties using?
    Mr. Hovland. Thank you, Congressman Butterfield. I 
appreciate the question.
    Obviously, again, when we talk about trusted sources and 
the #TrustedInfo2020 effort, that is all about getting people 
to their State or local election official.
    I mentioned the CARES Act funding in my testimony earlier. 
Certainly, we heard from a lot of States that they were going 
to at least use a portion of that funding to work on voter 
education. And that is a huge issue this year.
    Certainly, as different States are administering different 
processes, we heard from several of the witnesses, you know, we 
are going to see a record-setting use of mail or absentee 
ballots this year----
    Mr. Butterfield. Yeah.
    Mr. Hovland [continuing]. But that is----
    Mr. Butterfield. But do the States have the resources? Do 
the States have the resources that they need?
    Mr. Hovland. We held a hearing where we were doing primary 
lessons learned, and, between that and a number of other 
conversations, we have consistently heard about the need for 
additional funding.
    Obviously, elections are under-resourced traditionally. The 
Federal funding that has come through has made a big 
difference, but there is absolutely a need for more. And we 
consistently hear from election officials about the need for an 
annual funding stream, a regular funding stream that allows for 
them to point----
    Mr. Butterfield. Well, I can tell you, the States that I am 
most familiar with, resources are desperately needed.
    Let me go over to Dr. Overton.
    Thank you so very much, sir, for your testimony, and thank 
you for all the incredible work that you do on behalf of Black 
America every day.
    And you talked a moment ago about social media and how 
harmful misinformation can be. What is the role of social media 
in nefarious efforts to misinform and suppress voting in Black 
communities? You said that they are doing better, but are they 
really doing better?
    Mr. Overton. Yes, Congressman Butterfield, just, first of 
all, I want to just acknowledge, I know your father played a 
pivotal role in furthering voting rights. I know he would be 
proud of you and your many contributions to voting rights----
    Mr. Butterfield. Thank you.
    Mr. Overton [continuing]. In terms of changing Wilson and 
its at-large system and the Voting Rights Act. So thank you.
    In terms of these companies, they need to do a lot more. 
They need to step up to the plate. There are a few things they 
are doing in terms of content moderation, but they need to do 
more in terms of a more rigorous definition of voter 
suppression. They need more transparency so that we know what 
is really happening with enforcement, are they effective in 
terms of their enforcement. So there are several things that 
they need to be doing to step up their game.
    And let me just say this. We have to press them, because 
they are key in terms of preventing voter suppression. They are 
getting a lot of pressure from this administration, and they 
need to know that people are paying attention and holding them 
accountable to prevent voter suppression.
    Mr. Butterfield. Well, I certainly think the State and 
local election officials have a role to play in all of this. 
What recommendations can you make to State and local election 
officials to ensure, to guarantee that Black and Brown voters 
are not misinformed?
    Mr. Overton. Yes. I think the Brennan Center put out a very 
good document on this, and I would refer people to go there. 
Basically, it is providing the accurate information that exists 
here and being a trusted source of information.
    We have heard some of these recommendations from our fellow 
witnesses. And I think that is key, in terms of a critical 
place to go, where there is accurate information, and ensuring 
it is public and available.
    Mr. Butterfield. And in the final 30 seconds, Dr. Overton, 
what can voters do to guarantee that their votes are not 
discarded?
    Mr. Overton. Well, number one, they need to recognize that 
what they see online may be false. So they need to pay 
attention to that. That is number one.
    Number two, if they are voting by mail, one of the big 
issues we see are ballots rejected because there was something 
that wasn't filled out. And they need to just pay attention in 
terms of voting by mail.
    And then the most important thing is, they have to 
participate. Don't be discouraged by what is happening. 
Participation is critical.
    Mr. Butterfield. Thank you. I will spread that throughout 
my district, ``Pay attention.''
    Mr. Overton. Thank you.
    Mr. Butterfield. Thank you, Madam Chair. I yield back. 
Thank you.
    Chairwoman Fudge. Thank you very much, Mr. Butterfield.
    We have now been joined by the Chairperson of the full 
Committee, Zoe Lofgren from California.
    Madam Chair, you are recognized.
    The Chairperson. Well, I thank you very much, Madam 
Chairwoman. I just wanted to hop on for a few minutes to listen 
to this incredible panel and also to thank you for your 
leadership as chair of the Elections Subcommittee and the 
members who have joined you today.
    I wish that our colleagues across the aisle had joined us, 
and maybe they still will. That would be important, because it 
should not be a partisan issue, the idea of every American 
being able to cast their vote freely and to have that vote 
counted as cast, which is just the bottom line for America.
    So what you are doing today is important, in terms of 
shining a spotlight on what the issues are, but also telling 
each and every one of us, as community leaders, as voters, what 
we can do to make sure that that goal, every American citizen 
gets the chance to cast their vote.
    So thank you so much for doing this. I am going to hop off 
in a minute to another obligation, but I didn't want to pass up 
the opportunity to listen and to thank you once again for the 
leadership you have shown.
    Chairwoman Fudge. Thank you so much, Madam Chair, for 
joining us. We very much appreciate it. And we know how busy 
your schedule is, so I appreciate you joining us.
    I will now recognize Mr. Aguilar of California.
    Mr. Aguilar, you are recognized for five minutes.
    Mr. Aguilar. Thank you, Chairwoman Fudge, for your 
steadfast leadership on voting rights and for the Committee's 
focus on this topic.
    As I have said in this Committee before, our goal should be 
to remove the barriers that prevent Americans from voting. And, 
right now, that means making sure that it is safe in the midst 
of a pandemic.
    And one safe and effective form that we know, that our 
speakers talked about, was utilizing mail-in ballots, which 
allow Americans to vote safely from their homes. And despite 
claims by the minority on this Committee--and, again, I wish 
they were here to defend themselves about this topic--there is 
no significant risk of voter fraud associated with mail-in 
balloting. These claims could also misinform millions of 
Americans as they create their plan to vote.
    Elections experts across the political spectrum agree that 
voting fraud is exceedingly rare. Whether you want to trust the 
Brennan Center for Justice or The Heritage Foundation's 
database tracking voter fraud, the results are the same. The 
actual fraudulent vote-by-mail votes cast over the past two 
decades are minuscule, and there is no legitimate concern over 
voter fraud. It is more likely for Americans to get struck by 
lightning than to commit voter fraud, and voter fraud is rarer 
than winning the Mega Millions.
    Misinformation about voting by mail is dangerous and could 
cause millions of Americans to alter their plan, and that would 
be a mistake in exercising their right to vote. And that is why 
House Democrats have passed numerous bills through this 
Committee and through the full House to help Americans vote 
safely, accurately, and without fraud during this pandemic. And 
we need to continue to do that.
    My question would be to Mr. Overton.
    We have seen the growing misinformation targeting 
communities of color specifically. Social media posts from 
foreign state actors, including Iran and Russia, have attempted 
to change the political opinions of minority voters, to depress 
voter turnout.
    We have seen this despicable information and disinformation 
campaigns from fellow Americans. On October 1, two Americans 
were charged with conspiring to intimidate voters in violation 
of election law. These two individuals sent thousands of 
robocalls to African-American communities in at least five 
States, telling these residents that voting by mail in the 
upcoming election was subject to their arrest, debt collection, 
and enforced vaccination.
    So what can we do to fight this misinformation campaign 
from foreign actors and even our own fellow citizens?
    Mr. Overton. Congressman Aguilar, thank you so much for 
that question. And what is really important about your question 
is it illustrates the evolving nature of voter suppression, 
right?
    So we have had robocalls happen in the past. They happened 
in this election, as you mentioned, in Michigan and really 
across the country. In Michigan, 12,000 Detroit residents were 
targeted with these robocalls to basically discourage them from 
voting. They were impersonating, trying to pretend that they 
were someone from the community here, in terms of the speaker, 
et cetera. And we see that same thing with regard to social 
media. So this is kind of an evolution in terms of platforms 
with regard to social media.
    In terms of specific steps, again, people have to 
recognize, individuals have to recognize that there is a lot of 
misinformation that is out there. And trust credible sources. 
Go to your elections officials websites and get accurate 
information. They need to, as you said--your language--develop 
a plan to vote. That is incredibly important. Have a plan and 
go ahead and go out and vote now. So don't be discouraged.
    There are so many people who would say--as you know, in 
2016, they said, hey, let's protest all this that is going on, 
let's protest this racism and not vote. That was an attempt to 
basically suppress voters of color. Folks can't fall into that 
trap. They have to get good information, and they have to 
participate.
    Mr. Aguilar. And as more and more voters are voting early--
I think the numbers are over a million people have already 
voted, and Chairperson Fudge, you know, mentioned in her own 
communities, how people are already voting--I am concerned. I 
am concerned that right now is the time these disinformation 
campaigns are going to ramp up their efforts, because many 
people know that their political interests are not served when 
more people exercise their right to vote. So that is what 
concerns me and what we have to be on the lookout for.
    Madam Chair, I ask unanimous consent that a September 30 
article published in The New York Times entitled ``Study Finds 
Single Largest Driver of Coronavirus Mismanagement Trump,'' and 
a September 30 piece from The New York Times Magazine entitled 
``The Attack on Voting: How President Trump's False Claim of 
Voter Fraud is Being Used to Disenfranchise Americans,'' both 
be entered into the record.
    Chairwoman Fudge. Without objection, so ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. Thank you, Mr. Aguilar.
    Mr. Aguilar. Thank you.
    Chairwoman Fudge. Mr. Raskin, you are now recognized for 
five minutes.
    Mr. Raskin. Madam Chair, thanks for your great leadership 
in calling this hearing and making sure that we are staying 
laser-focused on the integrity and fairness of this election.
    I want to go to my friend, Spencer Overton, first.
    Welcome, Professor.
    President Trump has been engaged in a lot of propagandistic 
disinformation already about the election, calling it a fraud, 
a scam, a hoax, millions of fake ballots, and all of that 
stuff. This itself discourages and depresses voting; it 
demoralizes voters.
    It also provides a smokescreen and a fog of propaganda for 
State legislatures that may be trying to depress turnout and 
may be trying to discredit what could be a landslide popular 
vote, based on the polls today, for Joe Biden and replace the 
popular vote with electors that have been appointed directly by 
the State legislature.
    So this question of propaganda disinformation is very 
important in terms of us trying to preserve the integrity of 
popular democracy in the States in this Presidential election.
    I wonder if you would comment about Facebook. I know 
Twitter has implemented a ban on all political ads on its 
platform. Google has said that it will ban political ads, ads 
that are referencing the election and candidates, after 
November 3 through January 6.
    Facebook has said something interesting, which is it will 
ban false and misleading ads from October 27 to November 3. But 
we know that there could be just a slew of propaganda coming on 
Facebook after the election to try to cast doubt on the 
election results, falsely portraying Trump as the winner where 
he is not the winner and so on.
    Would you comment on what Facebook has done so far? And I 
wonder specifically if you think that Facebook should continue 
its ban on false and misleading information after November 3, 
all the way up until the electoral college votes are cast and 
counted in January in Congress.
    Mr. Overton. Yes. Thank you so much. Just first of all, I 
have to acknowledge, you have had such a strong commitment to 
democracy in terms of including eliminating the wealth primary 
that prevents so many good candidates from entering democracy, 
and your strong support for restoring voting rights to 
returning citizens. I am a fan of your writings, in terms of 
your scholarship. So thank you so much.
    Congressman Raskin, Facebook needs to do a number of 
things. Number one, they certainly have to prohibit 
politicians--right now, they have basically a dual standard 
here in terms of politicians and allowing politicians to 
promote false and misleading misinformation. And they need to 
ensure that, before the election and after the election, when 
the ballots are being counted, that there is no false and 
misleading information.
    They also have to strengthen their definition of voter 
suppression.
    They would also say that that they have 35,000 content 
moderators. Okay, but they also have 2.7 billion monthly active 
users around the world. So that works out to about 1 moderator 
per 77,000 users.
    And so there are a number of things they have to step up to 
the plate on. And, again, part of it is between now is November 
3, but that period after November 3, as you hold up, is also 
critical.
    Mr. Raskin. Thank you.
    And, Ms. Griswold, Facebook has been used as a powerful 
instrument of disinformation and racial and ethnic 
propagandistic violence that has caused civil unrest and even 
mass atrocities in countries like Sudan, Myanmar, Ethiopia, and 
so on.
    Would the commission that you are suggesting also be 
working on making sure that we don't get propaganda towards the 
goal of creating violence in the streets, which seems to have 
been, you know, coached all the way to the top, even including 
President Trump at the debate telling the racist and violent 
organization Proud Boys to stand back, and stand by?
    Ms. Griswold. Congressman, that is exactly right. I think 
we need a commission to really move forward to make sure that 
this attack on our Nation's democracy from foreign adversaries 
does not continually happen every election. So that goes from 
homegrown misinformation, to the scanning of election 
infrastructure, to disinformation that we are seeing.
    And those comments about the Proud Boys have real effect. 
As a Secretary of State responsible for ensuring that Americans 
from all communities have access to the polls, I think it is 
very important to say that voter suppression is often systemic 
racism. And when you have the leader of the free world calling 
on neo-Nazis in the election process, that is voter 
suppression. When you have the President calling on law 
enforcement, which is a tactic straight out of the Jim Crow 
South, that is voter suppression.
    So I do think that, number one, we have to tackle 
misinformation and foreign countries' interference, but, number 
two, I hope we continue a conversation after November about 
what it means to be an American citizen and what access every 
American citizen has.
    In Colorado, we have accessible elections. Every American 
deserves to have a mail ballot, access to early voting, online 
voter registration, and same-day voter registration, just like 
Coloradans, to truly realize what it means to be a citizen in 
this country.
    Mr. Raskin. Thank you.
    Madam Chair, my time is up, but could I request unanimous 
consent for two articles to be entered into the record? One is 
a September 8 Washington Post piece entitled ``Republicans Have 
Insufficient Evidence to Call Elections Rigged''; and a 
September 28 article from the Washington Post entitled 
``Cambridge Analytica Database Identified Black Voters as Ripe 
for Deterrence.''
    Chairwoman Fudge. Without objection, so ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Fudge. I will now recognize myself for five 
minutes.
    To both of the ladies on the panel--we will start with Ms. 
Davis Chappell--what do you say to the people who say, ``Oh, 
there is no voter suppression, look at the long lines around 
your building today''? What would you say to them?
    Ms. Davis Chappell. Oh, voter suppression can be seen in 
those lines, can be seen in the messages, but also can be seen 
in the way that we have, in Ohio, frankly, restricted their 
ability to vote. We have burdened the right to vote. There are 
constitutionalists that would say we have put structures in 
place to burden their right.
    We have one drop box--I know this is about messaging today, 
but it is also about voter suppression. We have one drop box 
for delivery of a ballot, in a tiny parking lot next to our 
administrative building, for 850,000 voters.
    Chairwoman Fudge. Wow.
    Ms. Davis Chappell. It makes absolutely no sense at all.
    We have one location, under State law, where voters can 
come--must come to vote in person. It makes no sense. We need a 
more robust manner in which folks can participate--vote 
centers.
    I mean, I would tell people not to be discouraged, though, 
and they do need to take part and take their job seriously, but 
we have an obligation, as boards of elections, to make it 
easier for folks to cast their ballots.
    I find it so interesting because people will say, oh, we 
have to have only one drop box--a drop box doesn't know whether 
the ballot is a Democratic ballot, a Republican ballot, an 
independent''--it doesn't make any sense.
    But I want people to be encouraged. We do need to tackle 
social media, but we need blocking and tackling tools for voter 
engagement. And that is in person. And this pandemic has 
created a problem.
    I will say, the Board of Elections--and then I will defer 
to my female colleague--we have had 220 in-person--voting--I am 
sorry--Zoom kinds of calls, but voter engagement sessions that 
we were able to do with three staffers.
    We need funding and earmarking for a more robust voter 
engagement and voter education program for boards of elections 
so we can counter, as best we can, all of the other messages 
that are being put out.
    Thank you.
    Chairwoman Fudge. Really quickly before we go to the 
Secretary, with the numbers that we are seeing now across the 
country--and certainly Secretary Griswold, her State has been 
doing this a very, very long time--how do we count all these 
ballots without the resources? I mean, what do we do if we get 
hundreds of thousands of mail-in ballots that have to be fed 
into a machine? What do you do?
    And just quickly, because I want to jump to Secretary----
    Ms. Davis Chappell. Yes.
    We have been able to vote by mail successfully in Cuyahoga 
County. We are processing them, not tabulating ballots. We are 
readying them to be processed. But we have said, we err on the 
side of accuracy, not speed.
    We are going to have lots of issues in terms of the volume, 
which is a good thing, but we will accurately count every 
ballot that is cast.
    Chairwoman Fudge. Thank you.
    And, Madam Secretary, I know that you actually sued the 
Postal Service because they were giving out misinformation to 
your residents. Tell us how you handle these situations.
    Ms. Griswold. Well, Madam Chairwoman, I think it is really 
important, as Secretary of State, to push back against false 
election information and try to get voters correct information.
    And that is right, we sued the United States Postal Service 
and won a restraining order about a postcard with wrong 
information for Colorado voters; and also sued on a multi-State 
litigation and got a restraining order also to make sure that 
the Postal Service does not make operational changes. And we 
won both of those restraining orders.
    But I do think that it highlights the need for national 
standards. The idea that we have misinformation trying to 
undermine vote-by-mail, which is the most responsible way to 
vote during a pandemic, can harm Americans' lives.
    And Colorado is proof of how wonderful a good election 
model can work. We have the highest percentage of active voters 
registered. We also lead the Nation in turnout. We are usually 
number one or number two in participation. Vote-by-mail also 
makes us more secure. Russia, a foreign adversary, cannot hack 
a piece of paper. And, lastly, it boosts participation. We saw 
an increase of participation when we adopted vote-by-mail for 
all by 9 percent, including by 13 percent among Black voters, 
10 percent among Latino voters, and 16 percent among young 
voters.
    So I do think--and would love to see the further expansion 
of Colorado's election model. It works. And every American 
deserves the same type of access that Coloradans have.
    Chairwoman Fudge. Thank you.
    And I am going to close with this question, and we will 
start with you, Commissioner.
    What, if any one thing, do you believe Congress can do, 
outside of resources? We know what kind of battle that is, even 
though we put the resources in two bills that have not been 
enacted, obviously. What one thing would you think that 
Congress can do to assure the American people that we are doing 
the best we can to make sure that their ballots count, and that 
the system is safe?
    Mr. Hovland. Thank you, Chairwoman Fudge. Absolutely, you 
know, this is critical particularly 28 days out.
    I think, you know, one of the real privileges of my job is 
that I get to travel around the country in normal times and see 
these behind-the-scenes processes, see what election officials 
are doing and all the checks and balances that go into the 
process.
    Certainly, as leaders in your community, Congress has an 
ability to both tell voters about that and, again, as we have 
echoed a lot today, the importance of having a plan, 
understanding your process, understanding how to participate.
    One thing I have been proud of: We partnered with the 
Cybersecurity Infrastructure and Security Agency on a product 
called the ``Three P's of Voting'' and basically saying to 
voters, you need to be prepared, participating, and patient.
    And that really is about checking your voter registration, 
making sure you are updated, knowing how you want to vote this 
year. Again, I mentioned the several different options that 
most Americans have, whether by mail or absentee ballot, early, 
in person or ultimately on election day, figuring out what is 
the best for you as an American, how to engage in the process.
    And then that ``patient'' piece we hit on a little bit 
earlier, but that is knowing that election night results are 
always unofficial. You know, that is something the media 
usually does, where they make calls. But, you know, to the 
degree that secretaries or chief election official websites--
you see election night reporting, those are always unofficial 
results. There is a canvass and certification process that 
happens after election day, and I have been saying that is 
where election officials dot the i's, cross the t's, and 
double-check the math. That is where you make sure the numbers 
are right, where you count every American's vote.
    And I think helping people understand more of that process 
and, again, knowing that their State and local election 
officials are the trusted source and where they should get that 
information is crucial.
    Chairwoman Fudge. Thank you very much.
    Ms. Davis Chappell.
    Ms. Davis Chappell. Yes, Madam Chair. I would just 
encourage--you guys are trusted servants. I would encourage you 
to use your bully pulpit, to use your platforms to reach out to 
your constituents and to give them the assurance that they 
definitely need to be confident that their local elections 
administrators are doing their jobs and to help us debunk a lot 
of these myths.
    People listen to you guys, and I think it is really 
important that, to the extent that you can get messaging out on 
your websites and in person, it will be very helpful to the 
voting population and to all of your constituents, be helpful 
to all of the elections administrators. That would be the 
biggest thing.
    Thank you.
    Chairwoman Fudge. Thank you.
    Ms. Griswold.
    Ms. Griswold. Thank you, Madam Chairwoman.
    I would say, number one, I am extremely confident in our 
elections in Colorado, even with all the noise. And the first 
thing I would suggest is make sure that all of you are using 
your platform to push out the message: Ignore the noise, find 
your trusted source of election information, make a plan to 
vote, and if you have access to a mail ballot, vote a mail 
ballot. It is the best way to vote during a pandemic and allows 
us to social distance and have our voice heard.
    But, second, I think we have to continue this conversation 
after November, because there is an attack on everyday people 
and our democracy. I grew up working-class, on food stamps, up 
in a cabin in rural Colorado. And I will tell you, there are so 
many people like me--normal, everyday Americans--who are losing 
faith in our democracy, either because of the voter suppression 
tactics we see, the misinformation, or special interests, or 
corruption.
    So I really encourage that, as we move past November, that 
we need to focus on democracy reform holistically. I led the 
largest democracy reform at the State level in the Nation last 
year to fight against special-interest campaign finance reform, 
voting rights reform. And all of these tenets of democracy 
reform relate to each other.
    So I look forward to seeing what you all do in the coming 
months and then the coming years, and I am always happy to help 
from Colorado.
    Chairwoman Fudge. Thank you.
    And last but not least, certainly, Mr. Overton.
    Mr. Overton. Chairwoman Fudge, thanks so much for your work 
authoring the VoteSafe Act and for your field hearings that 
give voice to real voters.
    Congress, Members of Congress, they need to use their 
platform to both encourage people to vote and ensure that there 
is good information out there, both before the election and 
after the election.
    President Trump's misinformation about vote-by-mail has 
actually been promoted by the Russians. They take screenshots 
of his tweets and they, using their fake accounts, promote them 
around to basically discourage people from participating and to 
encourage them to lose faith in our system. So there has to be 
a counter to that.
    Also, tech companies need to be held accountable to ensure 
that they are removing disinformation. Again, as I mentioned, 
with the 230 debate, the Trump administration is working the 
refs by discouraging them from removing disinformation, and 
there needs to be a loud counter-voice just ensuring that they 
are taking down and removing disinformation.
    And then, finally, as Secretary Griswold said, being 
prepared to immediately reform democracy in January, you know, 
that is critical here, whether it is H.R. 1, which is a great 
start, updating the Voting Rights Act, D.C. statehood. You will 
remember, I was at the beginning of the Obama administration in 
2009. Obviously, the Affordable Care Act was important, but, 
you know, my take is that we really should have done more to 
prioritize democracy here and including all Americans. So I 
would urge you to prioritize the inclusion of all Americans in 
terms of democratic reforms.
    Chairwoman Fudge. Well, thank you all so very much.
    And let me tell my colleagues, I know that this is a very 
busy time for all of us, as we are all on the ballot, and I 
know it is difficult to find some time to get away.
    I thank all of the witnesses. I know each of you has a very 
busy schedule as well, as elections have already started, 
voting has started in all of your various jurisdictions.
    And, Mr. Commissioner, I know how busy you all are.
    But I would just say this: In the absence of my friends, I 
am going to predict today that the American people are so 
discouraged by the attacks on our democracy that they are going 
to vote in bigger numbers than anyone can imagine. I believe 
that Americans have a real sense of fundamental fairness; they 
have a sense of what it means to believe in and support the 
Constitution. And what they believe is that elections do 
matter.
    And so I know that your job is going to be cut out for you, 
because you are going to be inundated with ballots from now--
for the next month, you are going to be inundated. And we are 
going to show our colleagues and the President of the United 
States, there is nothing you can do to kill this democracy. It 
is bigger than you, it is stronger than you, it is more 
resilient than you are. And we are going to win this election, 
the people are going to win the election, because we are going 
to exercise our right to vote no matter what obstacle you put 
in our way, no matter what roadblock you put in our way. We are 
going to do what this country has always done, do what is 
right.
    And so I want to thank you all and encourage you to know 
that we are fighting for you. We do the best we know how. I 
send out something, I think, every day about voting. But know 
we are on your side. And if we ever can get in a position where 
we can do the things we need to do for you, we will. I give you 
my word.
    Commissioner, know that if this election goes the way I 
want this election to go, we will be coming to you with the 
resources to give to all of these States to do this the right 
way and to not be afraid to cast their ballot, not be afraid to 
be intimidated because somebody says, ``I am going to send poll 
watchers to watch you.'' This is the end.
    Thanks, everybody. I appreciate you so, so much. Have a 
great rest of your day.
    And without objection, this hearing is adjourned.
    [Whereupon, at 2:05 p.m., the Subcommittee was adjourned.]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
    
                               [all]

      
</pre></body></html>
